Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   MEDICARE AND MEDICAID
  FRAUD AND ABUSE TRAINING
    IN MEDICAL EDUCATION




                    Daniel R. Levinson
                     Inspector General

                      October 2010
                     OEI-01-10-00140
   E X E C U T I V E                    S U M M A R Y


                  OBJECTIVES
                  To determine the extent to which:

                  1. medical schools provide instruction on compliance with Medicare
                     and Medicaid laws aimed at preventing fraud and abuse,

                  2. institutions offering physician residency and fellowship programs
                     provide instruction on compliance with these laws, and

                  3. medical schools and institutions offering physician residency and
                     fellowship programs would like the Office of Inspector General (OIG)
                     to provide educational resources addressing compliance with these
                     laws.


                  BACKGROUND
                  Medicare and Medicaid fraud and abuse cost U.S. taxpayers billions of
                  dollars each year and put the programs’ beneficiaries’ health and
                  welfare at risk. No current law requires medical schools and
                  institutions offering physician residency or fellowship programs to
                  provide instruction on compliance with Medicare and Medicaid laws
                  aimed at preventing fraud and abuse. OIG has dedicated significant
                  resources to promoting the adoption of compliance programs and
                  encouraging health care providers to incorporate integrity safeguards
                  into their organizations as an essential component of a comprehensive
                  antifraud strategy.

                  Among the Federal statutes addressing fraud and abuse are the civil
                  False Claims Act, the anti-kickback statute, and the physician
                  self-referral statute.

                  For this report, we conducted a survey of all accredited medical schools
                  and accredited osteopathic schools and institutions offering physician
                  residency and fellowship programs.


                  FINDINGS
                  Despite lack of a Federal requirement, 44 percent of medical schools
                  reported providing instruction to students on Medicare and
                  Medicaid fraud and abuse laws in 2010. Of the 131 deans who
                  responded, 57 (44 percent) indicated that they provided instruction on
                  Medicare and Medicaid fraud and abuse laws. Of those 57 deans,
                  53 indicated that the instruction took place in the classroom.


OEI-01-10-00140   MEDICARE AND MEDICAID FRAUD AND ABUSE TRAINING IN MEDICAL EDUCAT ION   i
E X E C U T I V E               S U     M M A R Y


                   Thirty-eight respondents reported that the instruction covered the False
                   Claims Act and the physician self-referral law, while 35 reported
                   covering the anti-kickback statute.
                   More than two-thirds of institutions offering residency and
                   fellowship programs reported instructing participants on
                   compliance with Medicare and Medicaid fraud and abuse in 2010. Of
                   the 387 designated institution officials (DIO) who responded to our
                   survey, 263 (68 percent) reported providing instruction on fraud and
                   abuse laws. Of those 263 DIOs, 212 (81 percent) reported using
                   conferences and lectures.
                   Almost all medical schools and institutions offering residency and
                   fellowship programs are interested in OIG-provided instructional
                   materials relating to Medicare and Medicaid fraud and abuse.
                   One hundred twenty-one deans (92 percent) reported that they would be
                   interested in receiving instructional materials covering fraud and abuse
                   laws. Among institutions offering residency and fellowship programs,
                   347 (90 percent) reported that they would be interested in such
                   materials. Most deans and DIOs stated that they were interested
                   specifically in more information on the False Claims Act, the anti-
                   kickback statute, and the physician self-referral law.


                   CONCLUSION
                   We recognize that medical schools and institutions offering residency
                   and fellowship programs face enormous challenges in providing a
                   comprehensive medical education to their students and physicians-in-
                   training. Despite these challenges, many reported providing fraud and
                   abuse training in 2010.

                   These efforts notwithstanding, opportunities exist for OIG to provide
                   additional educational materials addressing these topics. Such
                   materials could provide medical schools and hospitals with a consistent
                   starting point on which to build their training programs and would
                   support OIG’s efforts to promote voluntary compliance. Toward that
                   end, OIG plans to take the following steps:

                      Prepare educational materials appropriate for medical schools and
                       institutions offering residency and fellowship programs.

                      Distribute the materials to medical schools and institutions that
                       sponsor residency and fellowship programs.



 OEI-01-10-00140   MEDICARE AND MEDICAID FRAUD AND ABUSE TRAINING IN MEDICAL EDUCAT ION    ii
E X E C U T I V E               S U     M M A R Y


                      Seek feedback from the medical schools and institutions offering
                       residency and fellowship programs on ways to improve the
                       materials. Such feedback could include emerging compliance
                       challenges that physicians, hospitals, and other providers face.




 OEI-01-10-00140   MEDICARE AND MEDICAID FRAUD AND ABUSE TRAINING IN MEDICAL EDUCAT ION   iii
   T A B L E      O F          C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 5
                Despite lack of a Federal requirement, 44 percent of medical schools
                reported providing instruction to students on compliance with
                Medicare and Medicaid fraud and abuse laws in 2010 . . . . . . . . . . 5

                More than two-thirds of institutions offering residency and fellowship
                programs reported instructing participants on compliance with
                Medicare and Medicaid fraud and abuse laws in 2010 . . . . . . . . . . 5

                Almost all medical schools and institutions offering residency
                and fellowship programs are interested in OIG-provided
                instructional materials relating to Medicare and Medicaid
                fraud and abuse laws . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


         CONCLUSION ............................................. 7



         ACKNOWLEDGMENTS ....................................                                              8
   I N T R O D U C T I O N


                  OBJECTIVES
                  To determine the extent to which:

                  1. medical schools provide instruction on compliance with Medicare
                     and Medicaid laws aimed at preventing fraud and abuse,

                  2. institutions offering physician residency and fellowship programs
                     provide instruction on compliance with these laws, and

                  3. medical schools and institutions offering physician residency and
                     fellowship programs would like the Office of Inspector General (OIG)
                     to provide educational resources addressing compliance with these
                     laws.


                  BACKGROUND
                  Medicare and Medicaid fraud and abuse cost U.S. taxpayers billions of
                  dollars each year and put the programs’ beneficiaries’ health and
                  welfare at risk. 1 No current law requires medical schools or institutions
                  such as hospitals or universities offering physician residency and
                  fellowship programs to provide instruction on compliance with Medicare
                  and Medicaid laws aimed at preventing fraud and abuse.
                  OIG Efforts to Combat Fraud and Abuse
                  OIG considers partnering with health care providers, such as hospitals,
                  as an important component of a comprehensive effort to promote
                  program integrity. Toward that end, OIG has traditionally assisted
                  health care providers in adopting practices that promote compliance
                  with program requirements.
                  OIG uses a variety of tools in this effort. It issues compliance program
                  guidance that provide health care providers, suppliers, and
                  organizations comprehensive and specific frameworks, standards, and
                  principles to establish and maintain effective internal compliance
                  programs. OIG also is required to provide advisory legal opinions on
                  whether specific business arrangements violate fraud and abuse laws
                  and make these opinions available to the public. 2 On a periodic basis,

                    1 Health Care Reform: Opportunities to Address Waste, Fraud and Abuse: Hearing
                  before the House Energy and Commerce Committee Subcommittee of Health U.S. House of
                  Representatives, 111th Cong. (2009) (Statement of Daniel R. Levinson, Inspector General,
                  Department of Health and Human Services).
                    2 Relevant law and regulation may be found at 42 U..S.C. § 1320a-7d(b). and 42 CFR §
                  1008.47.



OEI-01-10-00140   MEDICARE AND MEDICAID FRAUD AND ABUSE TRAINING IN MEDICAL EDUCAT ION                       1
I N T R O D        U C T      I O N


                    OIG also develops and issues guidance, including special advisory
                    bulletins, fraud alerts, and open letters, to alert and inform the health
                    care industry about potential problems or areas of special interest. 3
                    Civil and Administrative Statutes Addressing Fraud and Abuse
                    Among the Federal statutes addressing fraud and abuse are the civil
                    False Claims Act, the anti-kickback statute, and the physician
                    self-referral statute. We asked medical school deans and designated
                    institution officials (DIO) at institutions offering physician residency
                    and fellowship programs about each of these laws in this evaluation.

                    The civil False Claims Act. The civil False Claims Act addresses
                    fraudulent billing of the Federal Government. This Act assigns liability
                    to any person who knowingly submits a fraudulent claim for payment to
                    the Federal Government. It also addresses the creation and submission
                    of false records relating to false claims, among other provisions.
                    Violations generally are punishable by a civil penalty up to $10,000 (as
                    adjusted by the Federal Civil Penalties Inflation Adjustment Act of
                    1990) and three times the amount of damages suffered by the
                    Government as a result of the fraudulent claims. 4
                    Anti-kickback statute. The Federal anti-kickback statute states that
                    anyone who knowingly and willfully receives or pays anything of value
                    to influence the referral of Federal health care program business,
                    including Medicare and Medicaid, can be charged with a felony.
                    Violations of the law are punishable by up to 5 years in prison and
                    criminal fines up to $25,000. Violators also are potentially subject to
                    administrative civil monetary penalties up to $50,000 under
                    42 U.S.C. 1230a-7a and exclusion from participating in Federal health
                    care programs under 42 U.S.C. 1230a-7.

                    Physician self-referral statute. The physician self-referral statute
                    prohibits, with certain exceptions, the practice of physicians’ referring
                    patients to facilities in which they have ownership or other financial
                    interests. Violations of the law are punishable by a civil penalty up to
                    $15,000 per improper claim, denial of payment, and refunds for certain
                    past claims. 5



                      3 Additional information regarding these tools may be found on OIG’s website at

                    http://www.oig.hhs.gov/fraud.asp.
                      4 31 U.S.C. § 3729 et seq.
                      5 42 U.S.C. § 1395nn.




 OEI-01-10-00140    MEDICARE AND MEDICAID FRAUD AND ABUSE TRAINING IN MEDICAL EDUCAT ION                2
I N T R O D        U C T      I O N


                    Other Federal statutes addressing fraud and abuse include the Civil
                    Monetary Penalties Law and the Exclusion Statute. The Civil
                    Monetary Penalties law covers an array of fraudulent and abusive
                    activities and is similar to the False Claims Act. Violations of the law
                    may result in penalties between $10,000 and $50,000 and up to three
                    times the amount unlawfully claimed. 6 The Exclusion Statute excludes
                    individuals or entities from participating in the Medicare or Medicaid
                    program from a minimum of 3 to 5 years, depending on the offense, to
                    possible lifetime exclusion.

                    We will refer to these civil and administrative laws collectively as
                    Medicare and Medicaid fraud and abuse laws.
                    Medical Education in the United States
                    Physicians begin their medical education in either an allopathic or
                    osteopathic medical school. Students generally attend for 4 years and
                    attend traditional lecture courses as well as receiving clinical
                    instruction in hospitals and other clinical settings.

                    Upon completing medical school, students enter residency programs,
                    where their training focuses on a medical specialty. Residency
                    programs generally operate within a hospital setting and last between
                    3 and 8 years, depending on the specialty. For some subspecialties,
                    residents may train for an additional 1 to 3 years as fellows.

                    In addition to providing advanced clinical training, hospitals or
                    individual specialty programs may provide their residents and fellows
                    with training in subjects such as ethics or compliance with Federal laws
                    and regulations.


                    METHODOLOGY
                    Scope
                    This study assessed the extent to which, in 2010, U.S. medical schools
                    and institutions, such as medical centers or universities offering
                    physician residency and fellowship programs provided instruction on
                    compliance with Medicare and Medicaid fraud and abuse laws to
                    students and physician residents and fellows. This study also assessed
                    the extent to which, in 2010, medical schools and institutions offering
                    physician residency and fellowship programs provided instruction on


                      6 42 U.S.C. § 1320a-7a.




 OEI-01-10-00140    MEDICARE AND MEDICAID FRAUD AND ABUSE TRAINING IN MEDICAL EDUCAT ION   3
I N T R O D        U C T      I O N


                    compliance with the civil False Claims Act, the anti-kickback statute,
                    and the physician self-referral statute.
                    Data Collection and Analysis
                    We identified deans at 131 accredited allopathic medical schools and
                    29 accredited osteopathic medical schools through the Association of
                    American Medical Colleges and American Association of Osteopathic
                    Colleges (hereinafter referred to as medical schools). We also
                    identified DIOs at the 660 institutions offering accredited residency
                    and fellowship programs, as determined by the Accreditation Council
                    for Graduate Medical Education. 7
                    We sent each identified dean and official a survey asking (1) what type
                    of instruction medical students, resident physicians, and fellows
                    received about Medicare and Medicaid fraud and abuse laws in 2010;
                    and (2) what educational resources OIG could provide.

                    We first contacted the deans and DIOs in April 2010. We followed up
                    twice with those who had not responded. We received 131 responses
                    from deans for an 82-percent response rate and 387 responses from
                    DIOs for a 59-percent response rate.
                    Limitations
                    We did not independently verify information provided by medical school
                    deans or DIOs.
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspections approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




                      7 We removed 21 institutions that offered only forensic pathology programs because they
                    do not bill Medicare and Medicaid for services rendered.



 OEI-01-10-00140    MEDICARE AND MEDICAID FRAUD AND ABUSE TRAINING IN MEDICAL EDUCAT ION                    4
F    I N D I N G       S
       F I N D I N G S



       Despite lack of a Federal requirement,                Of the 131 deans who responded,
      44 percent of medical schools reported                 57 (44 percent) indicated that they
         providing instruction to students on                provided instruction on Medicare
compliance with Medicare and Medicaid fraud                  and Medicaid fraud and abuse
                                                             laws. Of those 57 deans,
                      and abuse laws in 2010
                                                             53 indicated that the instruction
                      took place in the classroom. However, 33 of those deans also indicated
                      that classroom instruction was limited to about 2 hours or less. Deans
                      reported using other educational formats less often. For example, of
                      57 respondents, 23 reported using reading materials and 14 reported
                      providing training in a clinical setting.

                      About two-thirds of the 57 medical schools that provided instruction
                      specifically reported covering the False Claims Act, the physician
                      self-referral law, and the anti-kickback statute. Thirty-eight
                      respondents reported that the instruction covered the False Claims Act
                      and the physician self-referral law, while 35 reported covering the anti-
                      kickback statute. The deans indicated that their medical schools
                      presented information in the classroom or through reading material.



     More than two-thirds of institutions offering           Of the 387 DIOs that responded to
    residency and fellowship programs reported               our survey, 263 (68 percent)
     instructing participants on compliance with             reported providing instruction on
                                                             fraud and abuse laws. Of those
    Medicare and Medicaid fraud and abuse laws
                                                             263 DIOs, 212 (81 percent)
                                           in 2010
                                                             reported conducting conferences
                      and lectures. One-hundred thirty-one (50 percent) respondents reported
                      providing 4 hours or less of training per year. Further, 100 (38 percent)
                      respondents reported providing the training annually while an
                      additional 58 (22 percent) reported providing training in the first year of
                      residency.
                      Hospital officials reported using other educational formats less often.
                      For example, of 263 respondents, 135 (51 percent) reported using
                      reading materials, 124 (47 percent) reported using online training, and
                      117 (44 percent) reported providing training in a clinical setting.

                      Over three-quarters of the hospitals that provided instruction specified
                      the areas covered in their survey responses. Two-hundred nine DIOs
                      (79 percent) reported that the instruction covered the False Claims Act,


    OEI-01-10-00140   MEDICARE AND MEDICAID FRAUD AND ABUSE TRAINING IN MEDICAL EDUCAT ION    5
F    I N D I N G       S


                      201 respondents (76 percent) reported that the instruction covered the
                      anti-kickback statute, and 200 respondents (76 percent) reported that
                      the instruction covered of the physician self-referral law.


    Almost all medical schools and institutions            One hundred twenty-one deans
    offering residency and fellowship programs             (92 percent) reported that they
    are interested in OIG-provided instructional           would be interested in receiving
    materials relating to Medicare and Medicaid            instructional materials covering
                                                           fraud and abuse laws. Most deans
                           fraud and abuse laws
                                                           responded that they would like
                      more information on the False Claims Act, the anti-kickback statute,
                      and the physician self-referral law. Of the 121 deans who indicated an
                      interest in materials, 86 (71 percent) specified that they wanted a
                      general overview of all Medicare and Medicaid fraud and abuse laws.
                      Several of those respondents further explained that helpful material
                      should highlight general principles rather than the details, because
                      medical students will not be billing for several years.
                      Among institutions offering residency and fellowship programs,
                      347 (90 percent) reported that they would be interested in instructional
                      materials covering fraud and abuse laws. Most respondents stated that
                      they were interested specifically in more information on the False
                      Claims Act, the anti-kickback statute, and the physician self-referral
                      law.

                      Because of the large number of accredited residency programs at some
                      institutions offering residency and fellowship programs, several
                      respondents highlighted the value of having standardized educational
                      materials covering fraud and abuse laws to distribute across programs.
                      Other respondents indicated that they would like educational materials
                      covering proper documentation, coding, and reimbursement.




    OEI-01-10-00140   MEDICARE AND MEDICAID FRAUD AND ABUSE TRAINING IN MEDICAL EDUCAT ION   6
E X E C U T I V E               S U     M M A R Y
    C O N C L U S I O N




                   We recognize that medical schools and institutions offering residency
                   and fellowship programs face enormous challenges in providing a
                   comprehensive medical education to their students and physicians-in-
                   training. Despite these challenges, many reported providing fraud and
                   abuse training in 2010. However, this does not necessarily mean that
                   the training offered was accurate and comprehensive nor that all
                   students, residents, and fellows participated in the training.

                   These efforts notwithstanding, opportunities exist for OIG to provide
                   additional educational materials addressing these topics. Such
                   materials could provide medical schools and hospitals with a consistent
                   starting point on which to build their training programs and would
                   support OIG’s efforts to promote voluntary compliance. Toward that
                   end, OIG plans to take the following steps:

                      Prepare educational materials appropriate for medical schools and
                       institutions offering residency and fellowship programs.

                      Distribute the materials to medical schools and institutions that
                       sponsor residency and fellowship programs.

                      Seek feedback from the medical schools and institutions offering
                       residency and fellowship programs on ways to improve the
                       materials. Such feedback could include emerging compliance
                       challenges that physicians, hospitals, and other providers face.




 OEI-01-10-00140   MEDICARE AND MEDICAID FRAUD AND ABUSE TRAINING IN MEDICAL EDUCAT ION    7
   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Joyce M. Greenleaf,
                  Regional Inspector General for Evaluation and Inspections in the
                  Boston regional office, and Russell Hereford, Deputy Regional Inspector
                  General.

                  Chris Galvin served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Boston regional
                  office who contributed to the report include Danielle Fletcher; central
                  office staff who contributed include Arianne Spaccarelli.




OEI-01-10-00140   MEDICARE AND MEDICAID FRAUD AND ABUSE TRAINING IN MEDICAL EDUCAT ION   8
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
